            Office of Inspector General




February 3, 2006

EDWARD L. BROWN
MANAGER, ACCOUNTING SERVICE CENTER

SUBJECT: Audit Report – Terminated Station Contracts
         (Report Number FT-AR-06-011)

This report presents an issue concerning payments made to contractors for terminated
station contracts. We identified this issue during our annual audit of the fiscal year
(FY) 2005 U.S. Postal Service Financial Statements – St. Louis Information Technology
and Accounting Service Center (Project Number 05BM002FT002).

                                                Background
The Postal Service awards contracts to establish and operate stations. These stations
are usually located in retail stores or other places of business and are operated by
contractors who accept mail from the public, sell postage and Postal Service supplies,
and provide other selected services. The Postal Service has over 3,000 contract
stations nationwide. In FY 2005, station contract payments totaled $73.8 million.

Most station contracts are open-ended.1 After St. Louis Accounting Service Center
(ASC) personnel enter the contract information, including the payment schedule, into
the Accounts Payable Accounting and Reporting System (APARS),2 payments are
made automatically to the contractor. Prior to January 2006, automatic payments
continued until the St. Louis ASC received a termination notice from the Aurora
Category Management Center (CMC) and stopped the payments. Currently the Aurora
CMC is solely responsible for processing all station contract terminations.



1
  Contracts for which the Postal Service does not establish ending dates. These contracts are active until terminated
by the contractor or the Postal Service.
2
  In August of FY 2005, the Postal Service replaced APARS with the Accounts Payable Excellence System.
Terminated Station Contracts                                                                   FT-AR-06-011




                          Objective, Scope, and Methodology
The objective of this portion of the audit was to determine whether the Postal Service
made payments for terminated station contracts. To accomplish our objective, we
identified all terminated station contracts in the Strategic National Purchasing System as
of February 1, 2005. We also identified all contract station payments3 made between
January 1 and January 31, 2005, in APARS.4 We compared the data to identify
possible payments made for terminated contracts. This resulted in a sample of
49 contracts, which we reviewed to determine whether the Postal Service made
payments after it terminated the contract. We performed transaction tests on these
systems’ data, to include tracing selected financial information to source records. We
also interviewed personnel from the St. Louis ASC and the Aurora CMC and reviewed
applicable policies, procedures, and reports.

We conducted this portion of the audit from February 2005 through February 2006 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. We
discussed our conclusions and observations with management officials and included
their comments where appropriate.

                                      Prior Audit Coverage
We have reported on payments made for terminated contracts beginning in FY 2000. In
our FY 2000 report,5 we identified invalid payments of $216,861 for terminated station
and cleaning service contracts. Similarly, in our FY 2002 report6 we identified invalid
payments totaling $58,248 for terminated station contracts. Based on these audits,
St. Louis ASC personnel took corrective actions to terminate future payments to these
contractors and established accounts receivable for the invalid payments.

In our FY 2001 audit report,7 we identified invalid payments totaling $218,000 for station
contracts, including both duplicate payments and payments made on terminated
contracts. Postal Service management took corrective action to either collect the
payments or establish accounts receivable. In addition, the Postal Service planned to
implement a review process to validate the existence of current station contracts.

In our FY 2003 audit report,8 we identified invalid payments totaling $67,341 for
terminated station contracts. Management stated the St. Louis ASC would develop and
periodically update a report matching contract stations that have not had any revenue
3
  Account 52301, Contract Station Service.
4
  January 2005 was judgmentally selected.
5
  Terminated Cleaning and Station Contracts (Report Number FT-LA-00-002, dated September 20, 2000).
6
  Terminated Station Contract (Report Number FT-MA-02-004, dated August 2, 2002).
7
  Payments to Contract Stations and Vendors Providing Goods and Services (Report Number FT-AR-02-011, dated
March 6, 2002).
8
  Terminated Contract Stations (Report Number FT-MA-04-002, dated February 11, 2004).



                                                     2
Terminated Station Contracts                                                                           FT-AR-06-011



activity for a specified number of days against payments made to those stations. Postal
Service personnel said those reports were put on hold pending implementation of
automated processing to prevent duplicate payments on terminated contracts.

                                                    Results

Terminated Station Contracts

The Postal Service made payments for terminated station contracts. Specifically, the
Postal Service continued payments on 15 (31 percent) of the 49 contracts reviewed,
although the contracts were terminated. For three contracts terminated in calendar year
(CY) 2002, the Postal Service made payments through August 2005. Further, for
12 contracts terminated in CY 2004, the Postal Service made payments as late as
June 2005. Purchasing guidelines9 state the contracting officer must send the
termination notice to the supplier and the St. Louis ASC simultaneously. Furthermore,
St. Louis ASC desk procedures state that when the ASC receives a modification or
notification to terminate, all future invoices scheduled for payment must be manually
closed in APARS. The St. Louis ASC produced termination notices for two of the
15 contracts. However, we could not determine whether the St. Louis ASC received
notifications for the remaining contracts. As a result, the Postal Service paid contractors
$290,370 for services not rendered.

As a result of our audit, St. Louis ASC personnel took corrective actions to stop
payment on checks issued but not cashed ($11,306) and to establish accounts
receivable for invalid payment balances ($231,450). In addition, St. Louis ASC
personnel established a $47,614 credit memo for two terminated contracts.10 Finally,
St. Louis ASC personnel ceased payments totaling $82,307 on terminated contracts
that were scheduled through the end of CY 2005.11

Appendix A shows the invalid amounts paid and future payments canceled for each of
the 15 terminated contracts. We will report invalid payments of $290,370 as questioned
costs and future payments canceled of $82,307 as funds put to better use in our
Semiannual Report to Congress.

Management stated that by the end of CY 2005, responsibility for station contract
payment processing will shift from the St. Louis ASC to the Aurora CMC. Additionally,
the Postal Service plans to use Contract Postal Unit Technology (CPUT) for all contract
station payments, which will identify terminated contracts and prevent automatic
payments. Postal Service management said these new procedures will provide better
controls to ensure the Postal Service does not make payments on terminated contracts.

9
  Interim Internal Purchasing Guidelines, dated May 19, 2005, Section 6.9, Contract Termination.
10
   Because the contractor has multiple Postal Service contracts, the Postal Service will offset open contract payments
with amounts paid on terminated contracts.
11
   As of November 30, 2005, the St. Louis ASC collected $154,524 of the accounts receivable and $47,344 of the
credit memorandum.



                                                          3
Terminated Station Contracts                                                 FT-AR-06-011



Because of the ongoing system plans and the shift in responsibility for processing of
payments to contract stations, we are not making a recommendation at this time.
However, we will continue to monitor this issue during the FY 2006 financial statements
audit.

Management’s Comments

Management agreed with the finding, including identified overpayments and, after
notification, instituted a process to collect overpayments the OIG identified.
Additionally, ASC management instituted an interim process in November 2005 to
ensure they processed all contract terminations and implemented CPUT in
December 2005. Finally, management advised that if the Postal Service had timely
implemented CPUT, it would have eliminated the problems associated with termination
orders the St. Louis ASC did not receive and process. Management’s comments, in
their entirety, are included in Appendix B of this report.

Evaluation of Management’s Comments

Management’s comments are responsive to the finding and actions taken should correct
the issue identified. We will continue to monitor the newly implemented process during
our future annual financial statements audit work.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Lorie Siewert, director,
Financial Statements, or me at (703) 248-2300.


   E-Signed by Inspector General
 VERIFY authenticity with ApproveIt
Darrell E. Benjamin, Jr.
Acting Deputy Assistant Inspector General
 for Financial Operations

Attachments

cc: Lynn Malcolm
    Keith Strange
    Vincent H. DeVito, Jr.
    Elizabeth L. Novillis
    Margaret A. Weir
    Steven R. Phelps




                                            4
Terminated Station Contracts                                                                         FT-AR-06-011



                                                   APPENDIX A

                        SUMMARY OF PAYMENTS MADE/SCHEDULED
                             FOR TERMINATED CONTRACTS

                                                                                           Invalid           Future
                                               Contract             Termination            Amount          Payments
Count          Vendor Number                   Number                  Date                 Paid12         Canceled13

     1      042945168EA00001 24782090S0129                            6/25/2004                 $4,051         $2,000

     2      484622124SA00001 2BRPSR03B2706                            8/26/2004                 $3,858         $2,280

     3      520807025EA00001 23748089P0168                            4/12/2004                 $5,846         $2,400

     4      524124944SA00001 07235889P0429                            2/12/2004                $49,129                $0

     5      562358364SA00001 05268400F0490                             4/2/2004                $20,815        $10,465

     6      581824629EA00001 07236801B0559                            4/23/2004                $16,603         $7,000

     7      593380753SA00001 47563000V0360                            6/10/2004                $10,277                $0

     8      840803653EA00001 07235889P0423                            5/27/2004                $68,631        $31,386

     9      850054230EA00001 07236894P0672                            4/24/2004                $14,224         $8,167

     10     860428590EA00001 07236894P1353                            3/26/2004                $29,413        $11,650

     11     870258768EA00001 07236894P1083                             7/5/2002                $11,039         $1,167

     12     870258768EA00001 07236894P1087                             7/5/2002                $37,867         $4,000

     13     870258768EA00001 07236895X1149                             7/7/2004                     $450            $292

     14     870265233EA00001 49778687X0662                           12/31/2004                     $167             $0

     15     810506670EA00001 07236899P0551                            6/14/2002                $18,000         $1,500

            Totals                                                                           $290,370         $82,307

12
     The total includes the established accounts receivable and stop payments on uncashed checks.
13
     These future payments were canceled through December 31, 2005.



                                                          5
Terminated Station Contracts                           FT-AR-06-011



                   APPENDIX B. MANAGEMENT’S COMMENTS




                                  6
Terminated Station Contracts       FT-AR-06-011




                               7
